October 7, 2020
Writer’s Direct Contact
(202) 220-1101
(213) 683-4007 FAX
Donald.Verrilli@mto.com

Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

Robert Olan and Theodore Huber v. United States, Case No. 20-306

Dear Mr. Harris:
Petitioners Robert Olan and Theodore Huber consent to the filing of any and all
amicus curiae briefs in this matter.
Thank you very much for your time and assistance in this matter.
Very truly yours,

Donald B. Verrilli, Jr.

